Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Tel: 202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Appellants Donald J. Trump, et al.
Dale E. Ho
American Civil Liberties Union
125 Broad Street
New York, NY 10004
Tel: 212-549-2693
dale.ho@aclu.org
Counsel for Appellees New York Immigration Coalition, et al.
Barbara D. Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005
Tel: 212-416-8016
barbara.underwood@ag.ny.gov
Counsel for Appellees New York, et al.

